In the
SUPREME COURT OF THE UNITED STATES
Certificate of Service
I, Geoffrey M. Young, pro se, hereby certify that all parties required to be
served have been served. I mailed a copy of the petition for certiorari to the
following parties on March 27, 2020:
Denise G. Clayton,
Chief Judge of the Kentucky Court of Appeals, Respondent
Wesley Deskins, Counsel of Record
Kentucky Court of Appeals
360 Democrat Drive, Frankfort, KY 40601
Phone: (502) 573-7920,
Email: wesleyd@kycourts.net
Kelly Stephens, Clerk
Supreme Court of Kentucky
State Capitol, Room 235
700 Capital Avenue
Frankfort, KY 40601
Phone: (502) 564-5444
Daniel Cameron, Attorney General
Kentucky State Capitol
700 Capital Avenue, Suite 118,
Frankfort, KY 40601
Phone: (502) 96-5300
Respectfully signed,

•ihu
Geoffrey M. Young
454 Kimberly Place
Lexington, KY 40503
Phone: (859) 278-4966
Email: energetic22@yahoo.com

